                                                 U.S. SMALL BUSINESS ADMINISTRATION

                                                     OFFICE OF INSPECTOR GENERAL




                                                                                                              ADVISORY MEMORANDUM
                                                                                                                         REPORT NO. 13-21

DATE:                 September 26, 2013

TO:                   Frederick Baldassaro, Assistant Administrator for Communications and Public Liaison

                      Robert Hill, Associate Administrator for Field Operations

                      Sara Lipscomb, General Counsel

SUBJECT:              SBA Enterprise-wide Controls over Cosponsored Activities

This advisory memorandum presents issues that we identified during our limited scope audit of the
Small Business !dministration’s (SBA or Agency) enterprise-wide controls over its cosponsored activities.
Our objective was to determine the adequacy of controls over the S!’s cosponsored activities in
accordance with federal laws, regulations, 1 and policies. We did not assess the validity and eligibility of
individual expenses for the cosponsored activities.

Summary

We determined that for its cosponsored activities, the SBA did not fully implement effective controls to
comply with the requirements stipulated in Title 13, Part 106 of the Code of Federal Regulations (CFR)
and Standard Operating Procedure (SOP) 90 75 3, Outreach Activities. Specifically, the SBA did not
(1) consistently vet and perform conflicts of interest determinations, (2) report on the results of its
activities within established timeframes, and (3) control excess funds that remained at the conclusion of
those activities.

We concluded that opportunities exist to strengthen S!’s controls over cosponsored activities that
include:

             Fully implementing additional controls over cosponsorship approval and closeout procedures;
             Strengthening controls over the maintenance of official cosponsorship files to ensure that all
              required documentation is obtained; and
             Performing effective Quality Service Reviews2 on all cosponsored activities to ensure that
              laws, regulations, and SBA policy were followed.




    1
      The Honorable Jeanne Shaheen, U.S. Senate Committee on Small Business and Entrepreneurship, requested the Inspector General to
perform an audit of SBA conference expenses to ensure that taxpayer dollars had been spent in accordance with laws and regulations. Our
audit of conferences prompted this separate audit of five SBA cosponsored lenders conferences.
    2
      The Federal Managers’ Financial Integrity !ct (FMFIA) requires agencies, on an ongoing basis, to evaluate the ability of their internal
control systems to protect federal programs against fraud, waste, abuse, and mismanagement.
To help implement stronger controls and oversight of cosponsored activities, we made eight
recommendations to several SBA officials.

Scope and Methodology

To perform the audit, we reviewed five SBA cosponsored activities that occurred since January 1, 2005,
and were included in the data call that the SBA submitted to the Congress.3 We obtained an
understanding of relevant federal laws, regulations, and SBA policies. We interviewed relevant SBA
officials and cosponsors. We also evaluated and performed analyses using certain financial records and
other documents obtained from SBA officials and cosponsors. Throughout the audit, we relied on files,
reports, and other data provided by SBA program officials and cosponsors.

We conducted our audit in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States, from June 2012 to September 2013. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objective.

Background

Section 4(h) of the Small Business Act authorizes the Agency to provide assistance for the benefit of
small businesses through cosponsored activities with any eligible entity. This assistance must be for the
benefit of U.S. businesses and further the mission of the Agency. Assistance generally includes training,
education, or dissemination of information. Agency policies and procedures applicable to cosponsored
activities are contained in SOP 90 75 3, Outreach Activities and 13 CFR Part 106.

According to the SOP, the Responsible Program Official accountable for a specific cosponsorship activity
will be a senior management official from the office originating the activity, i.e., a district director at the
district office level or a management board member at the headquarters level. The Office of Strategic
Alliances has the general duty to monitor all cosponsorships and address problems and concerns of
which the Director is made aware.

In a 2004 audit4 the OIG noted that improvements were needed in the compliance, guidance, and
oversight of SBA-sponsored and cosponsored activities. More specifically, noncompliance issues were
categorized in three general areas: soliciting and accepting gifts and fees; planning, conducting, and
reporting activities; and accounting for funds and non-cash assets. However, despite the addition of
SOP 90 75 3, we concluded that the Agency had not fully implemented or effectively monitored its
corrective actions because we found the same or similar conditions continued to exist during this year’s
audit. The OIG is making eight recommendations in this report.




   3
     Source: Letter to the Honorable Darrell E. Issa in response to a congressional inquiry on SBA conferences dated April 30,
2012.
   4
     OIG Audit Report 4-44, Summary Audit of SBA-Sponsored and Cosponsored Events by District Offices dated September 24,
2004.

                                                               2

Results

The SBA did not Always Vet and Perform Conflicts of Interest Determinations for Cosponsors

The SOP 90 75 3 stipulates that all potential cosponsors must be vetted by the originating office or the
Office of Strategic Alliances.5 The General Counsel or designee must sign SBA Form 1615, Cosponsorship
Approval Request, to document that a legal review was performed, which includes a finding that the
cosponsorship is legally sufficient and a conflict of interest determination was performed. This is to
ensure that a potential cosponsor’s participation in the cosponsored activity would not create an actual
or apparent conflict of interest with the SBA.

Our audit found that SBA officials did not always perform their due diligence for lenders, grantees, and
other entities that cosponsored its activities. Specifically, for one of the cosponsored activities, cash
contributions were accepted from lenders and grantees without a documented vetting and conflicts of
interest determination. This condition occurred because the Responsible Program Official did not timely
request checks on cosponsors added by a joinder agreement.6 Not properly vetting all cosponsors prior
to soliciting and accepting their cash or in-kind contributions could cause an apparent or potential
conflict of interest between the two entities.

Official Cosponsorship Files were not Complete

In accordance with SOP 90 75 3, within 60 calendar days after the cosponsored activity occurred, the
Responsible Program Official must ensure that all proper documentation and paperwork is completed
and submitted to the OSA for the official cosponsorship file which includes7 the SBA Form 2299, Final
Cosponsorship Report, final budget, and fiscal agent’s final accounting report.8 The Responsible Program
Official is accountable for all income and expenses related to the activity and should use the fiscal
agent’s final accounting report to prepare SBA Form 2299 and report on the results of the activity.

Based on our review of the official files, we determined that for the cosponsored activities in our
sample, required documentation was not always included in the file. For example, the:

           Fiscal agent’s final accounting report was missing from all the files; and
           SBA Form 2299, which includes the actual final budget, was missing from three files, and two
            Responsible Program Officials did not submit their reports to OSA within 60 days following the
            conclusion of the activity.

During this audit, we requested and received the required post activity documentation from the fiscal
agents and the Responsible Program Officials. The Responsible Program Officials, however, did not
always obtain or submit the fiscal agent’s final accounting report for their respective activities, as
required by S!’s guidance. In some cases, the Responsible Program Officials did not report the excess
funds that remained from these cosponsored activities on the SBA Form 2299 or to the OSA. We

    5
      Vetting entails gathering information about each potential cosponsor in order for the General Counsel or designee to
make a conflict of interest determination.
     6
       The S! added cosponsors to an event with a document titled “Joinder !greement/” The new cosponsors were not
included in the Cosponsorship Agreement that the SBA originally executed, but became cosponsors by operation of the Joinder
Agreement.
     7
       The file should include a copy of the fully executed osponsorship !greement- S! Form 1615, “osponsorship !pproval
Form-” S! Form 2299, “Final osponsorship Report-” and any additional correspondence or documents reviewed by OSA.
     8
       This report includes total income (listing of cash contributions from all cosponsors and participant fees collected) and
itemized list of expenses paid by the fiscal agent.

                                                               3

summarized our review of the SBA Form 2299 and fiscal agent’s final accounting report for the five
cosponsored activities in our scope (see Appendix A.)

For the cosponsored activities that we reviewed, the Responsible Program Officials did not comply with
the SOP requirement to submit the S! Form 2299, fiscal agent’s final accounting report, and final
budget to the responsible Headquarters official within 60 days after the conclusion of the cosponsored
activity. The Responsible Program Officials submitted these reports between three months and five
years after the cosponsored activity occurred. This occurred because the (1) OSA did not perform
sufficient oversight for these cosponsored activities; (2) cosponsorship agreements refer to the SBA SOP
rather than specifying critical closeout roles and responsibilities; (3) fiscal agents did not submit an
accounting to the Responsible Program Officials at the conclusion of the cosponsored activities; and (4)
Responsible Program Officials did not consistently follow-up with the fiscal agents within a reasonable
timeframe to obtain an accounting of the cosponsored activities.

The SBA Did Not Always Properly Account for Excess Funds from Cosponsored Activities

In accordance with SOP 90 75 3, all cosponsorship agreements must be accompanied by a proposed
budget to demonstrate the cosponsor(s) will not make a profit or accumulate excess funds from the
cosponsored activity. However, in the event that excess funds remain in the cosponsorship account
after all the expenses are paid, the cosponsors must decide how to handle the excess funds in
accordance with this SOP. When the sources of excess funds are cash contributions from cosponsors,
the SOP provides that excess funds may be returned to the cosponsors on a pro rata basis.
Alternatively, the cosponsors may agree in writing that excess cosponsorship funds will be a gift to the
SBA.9 ash gifts must be placed in S!’s usiness Assistance Trust (BAT) Fund. The SOP also provides
that a cosponsor may solicit and accept donations on its own behalf for the purpose of meeting its share
of the costs of the cosponsored activity.

Our audit showed that in four of the five cosponsored activities, excess funds were not returned to the
cosponsors pro rata, or gifted to the SBA and deposited in the BAT Fund. In addition, the remaining
fiscal agent, who solicited donations on its own to cover its share of costs, accumulated funds in excess
of the expenses paid. We estimated and summarized the amount of funds remaining at the conclusion
of the cosponsored activity based on the information provided (see Appendix A). We also determined
the status of those funds, and determined whether the funds were accounted for in accordance with the
provisions in SOP 90 75 3 (see Appendix B). The OSA was unaware of the final accounting of these
cosponsored activities and did not ensure that activities were closed out in accordance with SBA policy.
In addition, some excess funds remained in the custody of the fiscal agents.

While our objective was not to determine the validity and eligibility of expenses that were paid, our
review of closeout documentation showed that certain transactions were not processed in accordance
with guidance. For example, one of the fiscal agents billed $8,500 to pay itself an activity management
fee and $2,508 for web site alterations and maintenance.10 A second fiscal agent reimbursed itself
$6,000 in payroll costs for staff hours charged to the respective cosponsored activity. The SOP states
that cosponsored funds must not be used to pay a cosponsor’s overhead costs, including salaries, or
other indirect costs of the activity. Further, up to 16 months after the activity occurred, a third fiscal
agent issued checks totaling $8,417 to pay expenses that appear unrelated to the cosponsored activity.

    9
     SOP 90 75 3 states that excess funds that are given to the !gency must be applied as directed in the S!’s gift procedures
outlined in SOP 90 53, Gifts to the Agency. However, the SBA deleted this SOP in 2007 and has not had permanent procedures
on cash gift acceptance and disposition since that time. OIG Report 12-13, Review of the S!’s &iscal Year 2011 ash 'ifts,
dated March 30, 2012, contains a recommendation that the SBA issue permanent policies on Agency acceptance of gifts.
    10
       Upon request, the fiscal agent did not provide a third party invoice for the web site alterations and maintenance.

                                                               4

A fourth fiscal agent invested various increments of the excess $36,941. The Responsible Program
Officials should have, but did not, ensure that the excess funds from their activities were returned to the
cosponsors pro rata, or deposited in the S!’s AT Fund.

The fifth fiscal agent conducted fund raising activities to meet its share of the budgeted costs for this
specific cosponsorship activity. The final accounting provided by the fiscal agent showed funds received
in excess of expenses totaling $34,454. However, SOP 90 75 3 states that a cosponsor should not make
a profit on these activities. These conditions occurred because the (1) Responsible Program Officials did
not perform sufficient oversight of these cosponsored activities; (2) cosponsorship agreements did not
adequately specify all closeout roles and responsibilities; (3) fiscal agents did not timely provide an
accounting of income and expenses at the end of the cosponsored activity; (4) Responsible Program
Officials did not follow-up with the fiscal agent to receive the reports, and (5) SOP 90 75 3 did not clearly
stipulate a specific timeframe for disposing of excess funds. Consequently, neither the Responsible
Program Officials nor the fiscal agents complied with S!’s policy regarding the reporting on and closing
out of SBA cosponsored activities. In addition, the SBA had limited assurance that the fiscal agents
spent $106,47911 of private funds on authorized purposes, in accordance with SBA regulations and
policies. Lastly, $52,558 remained in the custody of the fiscal agents at-risk of misuse or fraud.

Conclusion

Given the S!’s current focus on increasing its market and outreach responsibilities with its lenders,
stakeholders, and small business concerns, correction of the issues in this report is imperative. All SBA
officials have a responsibility to be prudent in spending12 private sector dollars on its cosponsored
activities. Implementing sound and rigorous controls to plan, carry out, and report on these activities is
essential in meeting these responsibilities. Key to this is ensuring that staff, who plan these
cosponsored activities, are trained and knowledgeable regarding their fiduciary responsibilities including
the laws, regulations, and policies that govern cosponsored activities. Responsible Program Officials
have a responsibility to oversee and account for all funds collected in support of their respective
cosponsored activities. Further, Responsible Program Officials and the designated fiscal agent must
ensure the disposition of excess cosponsorship funds in accordance with SBA guidance.

By not effectively implementing adequate policies and procedures to address these issues, the SBA will
be less able to identify areas of unnecessary spending or opportunities for greater efficiency or cost
savings when cosponsoring these activities with public funds. Because of these conditions, SBA
personnel did not comply with regulations and SBA policies, and did not ensure that private funds were
spent in accordance with the intended purpose.

Recommendations:

We recommend the Assistant Administrator for the Office of Communications and Public Liaison:

    1.	 Collaborate with the General Counsel to update the cosponsorship agreement template to
        clearly include all specific roles and responsibilities for fiscal agents and all other accountable
        parties in accordance with SOP 90 75 3.


   11
     Our objective was not to test all expenses and determine whether they were allowable in accordance with SBA policy.
   12
     Cosponsored activities are often funded by fees paid by private sector participants, and/or funds contributed by the
cosponsors. The Agency rarely uses appropriated funds to pay for cosponsored activities; however, the five lenders
conferences reviewed in this audit do represent an anomaly as SBA did pay a registration fee for some of its employees to
attend.

                                                              5

We recommend the Office of Strategic Alliances Director:

    2.	 Establish controls, such as a reporting system, to ensure that all activities are timely and
        properly closed out, and that all required documents and reports, as specified in SOP 90 75 3,
        are obtained.
    3.	 Conduct periodic reviews of the official cosponsorship files for completeness and compliance
        with SOP requirements.
    4.	 Provide training for staff that plan cosponsored activities to reinforce their roles and 

        responsibilities. 

    5.	 Collaborate with the District Counsel and the General Counsel to ensure that all potential
        cosponsors are properly vetted prior to soliciting and accepting their cash contributions.

We recommend the Associate Administrator for the Office of Field Operations:

    6.	 Initiate actions to properly account for, and dispose of $36,941 remaining from the 2009
        America East Conference and $15,617 remaining from the 2010 Mid-America Lender Conference
        in accordance with the provisions of SOP 90 75 3.
    7.	 Under the provisions of FMFIA, perform periodic quality service reviews to include
        cosponsorship files and funds disposition, verifying any expenses paid out of cosponsored
        income are appropriate.

We recommend the General Counsel:

    8. 	 Revise SOP 90 75 3 to include specific procedures and timeframes regarding the disposition of
         any excess funds that result from SBA-cosponsored activities.

Agency Comments and OIG Response

On February 21, 2013, we provided a draft of this report to the Assistant Administrator for
Communications and Public Liaison, Associate Administrator for Field Operations and General Counsel
for comment. On September 6, 2013, the Office of General Counsel provided a consolidated response
to the draft report, which is included in its entirety in Appendix C. Management provided some
technical comments on certain information contained in the draft report, as well as comments on each
of the eight recommended actions/ ! summary of management’s technical comments,
recommendation-specific comments, and our responses follows.

General Management Comments

The SBA officials appreciated the opportunity to meet with OIG staff to provide clarification on S!’s law
and policy governing cosponsored activities prior to the issuance of the draft report. Management’s
review of the report and underlying files led them to conclude that OIG’s findings about the failings of
S!’s cosponsorship program as a whole are too broadly stated since the five agreements represent less
than one percent of all the cosponsored activities, which took place during that time. Management also
emphasized that certain terms of art should not be used interchangeably with SBA cosponsored
activities and gifts to the Agency.




                                                    6

OIG Response

We met with Agency officials on the specific issues addressed in this report between February 2013 and
May 2013. ased on the !gency’s response, we added language to clarify the number of fiscal agents
having excess funds remaining at the conclusion of the cosponsored events. For example, we added
criteria, which provides that a cosponsor may solicit and accept donations on its own behalf for meeting
its share of the costs of the cosponsored activity and these funds should be limited to its share of the
budgeted costs for the activity. Further, we received additional documentation after we issued the draft
report and thus, revised some amounts and uses of excess funds that we reported in the finding and
appendices. Lastly, we revised the number of cosponsors who were not vetted or a conflicts of interest
determination did not exist.

Management generally concurred with the findings related to reporting and accounting for excess
funds. Management disagreed with our finding regarding the vetting and conflict of interest
determinations for some cosponsors. We consider management’s comments to be generally responsive
to six recommendations and partially responsive to two recommendations.

Recommendation 1 - Collaborate with the General Counsel to update the cosponsorship agreement
template to clearly include all specific roles and responsibilities for fiscal agents and all other
accountable parties in accordance with SOP 90 75 3.

Agency Comments and OIG Response

Management agrees with the intent behind this recommendation but did not agree with the actual
recommendation. Management contends that roles are currently identified but what is evident from
this audit is that people need to better understand the terms and need more instruction on what and
how to report and what to monitor. We consider management’s comments to be generally responsive
to this recommendation. Above the specific discussion of the individual recommendation, the OIG will
evaluate the agency’s responsiveness through the audit resolution process/

Recommendation 2 - Establish controls, such as a reporting system, to ensure that all activities are
timely and properly closed out, and that all required documents and reports, as specified in SOP 90 75
3, are obtained.

Agency Comments and OIG Response

Management concurs with this recommendation. The SBA has a reporting system that relies heavily on
human resources. The Agency is exploring ways to use technology it already owns to collect
cosponsorship information and track agreements from conception and approval to close-out. We
consider management’s comments to be generally responsive to this recommendation/ !bove the
specific discussion of the individual recommendation, the OIG will evaluate the agency’s responsiveness
through the audit resolution process.

Recommendation 3 - Conduct periodic reviews of the official cosponsorship files for completeness and
compliance with SOP requirements.




                                                   7

Agency Comments and OIG Response

Management concurs with this recommendation. The Office of General Counsel (OGC) and OSA will
explore ways to leverage OGC staff to assist OSA with this task. We consider management’s comments
to be generally responsive to this recommendation. Above the specific discussion of the individual
recommendation, the OIG will evaluate the agency’s responsiveness through the audit resolution
process.

Recommendation 4 - Provide training for staff that plan cosponsored activities to reinforce their roles
and responsibilities.

Agency Comments and OIG Response

Management concurs with this recommendation. The SBA currently provides annual cosponsorship
training to employees and plans to supplement this with some specialized training focusing on roles and
responsibilities of fiscal agents. !ll supplemental materials will be made available through the !gency’s
intranet website. We consider management’s comments to be generally responsive to this
recommendation. Above the specific discussion of the individual recommendation, the OIG will
evaluate the agency’s responsiveness through the audit resolution process/

Recommendation 5 - Collaborate with the District Counsel and the General Counsel to ensure that all
potential cosponsors are properly vetted prior to soliciting and accepting their cash contributions.

Agency Comments and OIG Response

Management agrees that vetting is important so they generally agree with this recommendation. While
management did not explicitly agree or disagree with this recommendation, we consider the comments
responsive to the recommendation.

Recommendation 6 - Initiate actions to properly account for, and dispose of $36,941 remaining from
the 2009 America East Conference and $15,617 remaining from the 2010 Mid-America Lender
Conference in accordance with the provisions of SOP 90 75 3.

Agency Comments and OIG Response

Management agrees to dispose of $15,617 from the 2010 Mid-America Lender Conference by placing it
in the Business Assistance Trust Fund. Management stated that $36,941 from the 2009 America East
Lender Conference did not exist or is not available as described in the Draft Report. We consider
management’s comments to be partially responsive to this recommendation since management
concurred with disposing $15,617 remaining from the 2010 conference. However, management
contends they are not aware of $36,941 remaining from the 2009 America East Conference. We
recommend the District Director immediately collaborates with the fiscal agent, and SCORE, to confirm
the status of these funds and, accordingly, follows the provisions of SOP 90 75 3 to ensure the
disposition of these excess funds.

Recommendation 7 - Under the provisions of FMFIA, perform periodic quality service reviews to
include cosponsorship files and funds disposition, verifying any expenses paid out of cosponsored
income are appropriate.


                                                    8

Agency Comments and OIG Response

Management concurs with this recommendation. Cosponsored activities are one of the activities
already included in the Field Accountability Review (formerly called QSRs) and the Agency agrees to
revisit the list of cosponsorship-related questions to see if there are ways to improve this portion of its
peer-to-peer review process. We consider management’s comments to be responsive to this
recommendation

Recommendation 8 – Finalize and issue the draft Gift SOP including specific procedures and
timeframes regarding the disposition of any excess funds that result from SBA-cosponsored activities.

Agency Comments and OIG Response

Management agrees to finalize and issue the Gift SOP. Management stated that the Gift SOP will cross
reference SOP 90 75 3 as appropriate. We consider management’s comments to be partially responsive
to this recommendation. Management contends that SOP 90 75 3, not the Gift SOP, is the appropriate
place to address the procedures for disposing of these funds since they stem from cosponsored
activities. Accordingly, we will change the wording of this recommendation as follows: Revise
SOP 90 75 3 to include specific procedures and timeframes regarding the disposition of any excess funds
that result from SBA-cosponsored activities. Above the specific discussion of the individual
recommendation, the OIG will evaluate the agency’s responsiveness through the audit resolution
process.

Action Required

Please provide your management decision for each recommendation on the attached SBA Form 1824,
Recommendation Action Sheets, within 30 days from the date of this report. Your decision should
identify the specific action(s) taken or planned for each recommendation and the target date(s) for
completion. Consistent with OMB Circular A‐50, Audit Follow-up, your response should include the
corrective action(s) taken or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies extended to staff during this audit. If you have any questions regarding
this report, please contact Jeffrey R. Brindle, Director, Information Technology and Financial
Management, on (202) 205-7490.


                                                    ***


/s/
Robert A. Westbrooks
Deputy Inspector General




                                                      9

Appendix A. Summary of Required Documentation for Cosponsored Activities

  Cosponsored                 Fiscal Agent Report                     SBA Form 2299                Funds        Excess Funds
    Activity                                                                                     Remaining     Reported by the
                                                                                                   After         Responsible
                                                                                                 Activity as   Program Official
                                                                                                  Noted by
                                                                                                    OIG
2010 America        *Portland Regional hamber’s final         Dated 5/25/11 represented         $52,600               $46,600
East Lenders        accounting report dated 9/12/12            $160,175 as the final budget
Conference          showed total income $160,175, total        amount, which is the same
                    expenses $113,688.41, and excess funds     amount reported for cash
                    $46,600.34. However, our review of the     collected, and notation that
                    report showed that an additional $6,000    “Excess funds would be spent
                    was used to reimburse the fiscal agent     on education and training
                    for staff hours spent planning and         programs for small business
                    coordinating the America East              customers.
                    Conference.

2009 America        *SORE’s final accounting report dated     *Dated 9/17/12 represented        $36,941                    $0
East Lenders        8/22/12 showed total income                $97,243 as the final budget
Conference          $134,183.21, total expenses $97,242.60,    and $134,183 as cash
                    and $36,941 excess funds.                  collected; no dollar amount for
                                                               excess funds and notation that
                                                               “SORE has not disposed of
                                                               any of the excess funds and
                                                               has deposited those funds in a
                                                               separate account/”
2010 Mid-           *Louisiana Minority Supplier               *Dated 10/5/12 represented        $24,034                    $0
America Lenders     Development ouncil’s final accounting     $118,453.18 as the final
Conference          report dated 10/3/12 showed a ledger       budget; total cash collected
                    of in- and outgoing cash transactions      $118,150; no dollar amount
                    that occurred between 2/28/10 and          for excess funds; and notation
                    4/13/12, and $15,617.45 excess funds.      that “Funds will be transferred
                    However, our review of the report          to BAT Fund for LA District
                    showed that between 2/11/11 and            Office/”
                    4/13/12 an additional $8,417 was used
                    to pay expenses that appear unrelated
                    to the cosponsored activity.

2011 America        *SORE’s final accounting report dated     Dated 11/21/11 represented        $11,008                    $0
East Lenders        10/26/11 showed total income               $167,592 as the final budget
Conference          $167,592 and total expenses $167,592.      amount; total cash collected
                    Invoice for final check issued to SCORE    $167,592; and a notation
                    indicates $11,008 for SCORE direct costs   “Excess funds. Due to lesser
                    regarding an activity management fee       than expected attendance,
                    and for web site alterations and           final budget came in lower
                    maintenance.                               than projected/”

2007 America        *Rhode Island Small Business               *Dated 9/7/12 represented         $34,454                    $0
East Lenders        Development Center at Johnson and          $93,209.06 as the final budget;   (rounded)
Conference          Wales University’s final accounting        $93,209.06 as cash collected
                    report dated 12/4/07 showed total          and no reference to excess
                    income $127,011, total expenses            funds.
                    $92,557.16, and net income $34,453.84.

                                                                                         Total   $159,037              $46,600
  *Received in response to OIG audit request.

                                                               10
Appendix B. Status of Excess Cosponsorship Funds

    Cosponsored        Name of Fiscal           Status of Excess Funds             Were Excess Funds
      Activity            Agent                                                     Accounted for in
                                                                                    Accordance with
                                                                                  Regulations and SBA
                                                                                          Policy?
 2010 America East    Portland Regional    These funds were spent on the       No. Excess funds should
 Lenders Conference   hamber’             fiscal agent’s payroll cost and     have been returned to
                                           other activities to support small   cosponsors pro rata or
                                           business education and              gifted to the SBA and
                                           consulting activities.              deposited in the BAT
                                                                               Fund.

 2009 America East    SCORE                Bank statements reflect             No. Excess funds should
 Lenders Conference                        $38,702.07 as follows:              have been returned to
                                           $21,729.08 invested in muni         cosponsors pro rata or
                                           funds, $9,998 invested in           gifted to the SBA and
                                           securities, and $6,974.99 held in   deposited in the BAT
                                           a checking account. Three years     Fund.
                                           after the conclusion of the
                                           activity, the District Director
                                           asserted to us that he was
                                           unaware these excess funds
                                           existed.

 2010 Mid-America     Louisiana Minority   Of this amount, $8,417 was used     No. Excess funds should
 Lenders Conference   Supplier             to pay expenses that appear         have been returned to
                      Development          unrelated to the cosponsored        cosponsors pro rata or
                      Council              activity, and the residual          gifted to the SBA and
                                           $15,617 remains in the custody      deposited in the BAT
                                           of the fiscal agent. The District   Fund.
                                           Director asserted to us that he
                                           was unaware that excess funds
                                           remained from this activity.

 2011 America East    SCORE                The fiscal agent paid itself an     No. Excess funds should
 Lenders Conference                        $$8,500 activity management         have been returned to
                                           fee and $2,508 for web site         cosponsors pro rata or
                                           alterations and maintenance.        gifted to the SBA and
                                                                               deposited in the BAT
                                                                               Fund.

 2007 America East    Rhode Island Small   Funds were used to pay for          No. Donations collected
 Lenders Conference   Business             consulting services to small        by the cosponsor should
                      Development          businesses from October to          have been limited to
                      Center at Johnson    December 2007.                      meeting the share of its
                      and Wales                                                costs for the cosponsored
                      University                                               activity.




                                                           11

Appendix C: 	Agency Comments



                         U.S. SMALL BUSINESS ADMINISTRATION
                                         WASHINGTON, DC 20416



Date:       September 6, 2013

To:         John K. Needham, Assistant Inspector General for Auditing

From:       Frederick Baldassaro, Associate Administrator for Communications and Public
            Liaison

            Robert Hill, Associate Administrator for Field Operations

            Sara D. Lipscomb, General Counsel

Subject: 	 Advisory Memorandum Assignment 12013: Draft Report on SBA Enterprise-wide
           Controls over Cosponsored Activities


This is SBA’s initial response to the Office of Inspector General’s (OIG) Draft Report entitled
“Draft Report on SBA Enterprise-wide Controls over Cosponsored Activities.” We appreciate
the opportunity to comment on this Draft Report.

General Comments

SBA appreciated the opportunity to meet with OIG staff prior to the issuance of this Draft Report
to clarify SBA’s law and policy governing cosponsored activities. Nevertheless, the Draft Report
still reflects a misunderstanding of the nuances of SBA’s cosponsorship program. For example,
the Appendices reflect excess funds from America East 2007 when under SBA policy, there
weren’t any excess funds. The Appendices also provide some incorrect assumptions as to
fiscal agents’ use of cosponsorship funds. The Conclusion references the need for adequate
policies to identify areas of unnecessary spending or opportunities for greater efficiency or cost
savings, but these concepts apply to appropriated funds not cosponsorships, which are
supported with private dollars. Finally, there seems a misunderstanding of SBA’s vetting and
conflict of interest determination requirements.

SBA’s cosponsorship authority is a tool to leverage public and private resources to provide a
benefit for U.S. small businesses at little or no cost to taxpayers. The Draft Report summarizes
what OIG characterizes as failures by SBA officials to implement effective controls to comply
with its applicable regulations and policy. Our review of the report and underlying files leads us
to conclude that OIG’s findings about the failings of SBA’s cosponsorship program as a whole
are too broadly stated. From 2007 to 2011, SBA executed more than 600 cosponsorship
agreements. The five agreements that are the subject of this audit represent less than one

                                                12

percent of all the cosponsored activities which took place during that time period. It is not clear
to us why such sweeping statements would be made about a program given the statistically
insignificant number of activities examined.

It’s important to note SBA uses the terms “cosponsor,” “donor” and “gift” as terms of art. SBA’s
ability to conduct cosponsored activities stems from one section of the Small Business Act (15
USC 633(h)) and its ability to solicit and accept gifts from another (15 USC 633(g)). These are
two distinct authorities and programs. To avoid confusion, SBA does not use the associated
terms interchangeably. The Draft Report, at times, confuses the authorities and issues, which is
perhaps one reason SBA and OIG have obtained different conclusions. A section-by-section
analysis of the Draft Report follows.

Background

In the background section, OIG mentions a 2004 audit and states the three, broad
noncompliance categories highlighted in that audit still exist today: soliciting and accepting gifts
and fees; planning, conducting and reporting activities, and accounting for funds and non-cash
assets. While we understand OIG reviews its previous audits as part of a current audit, to avoid
confusion we note the many changes that have occurred since the 2004 audit.

While comparison of isolated issues that cross over from 2004 to today may be warranted, it is
not accurate and potentially confusing to the uninformed reader to categorically compare the
OIG 2004 audit of SBA-sponsored activities, cosponsorships and gifts with five cosponsored
activities conducted under the new law and policy.

First, none of the gift issues or recommendations raised in the 2004 audit are applicable to this
audit. Therefore, the first category of noncompliance, “soliciting and accepting gifts and fees”
should not be referenced in this Draft Report. Second, the noncompliances listed in the 2004
audit do not directly correlate to the 2004 findings or recommendations so it is difficult to
understand what from the 2004 audit is relevant or still applicable to the current cosponsorship
law and policy13. Last, SBA implemented recommendations from the 2004 audit. The 2004
recommendations largely focused on the need to develop additional policy on SBA-sponsored
and cosponsored activities. A side-by-side comparison of SOP 90 75 2 (on which the 2004
audit is based) and the revised cosponsorship policy in SOP 90 75 3 demonstrates that SBA
made the applicable recommended policy changes from the 2004 audit.

Results

     A.	 The SBA Did Not Always Take Measures to Document Whether Conflicts of Interest Existed for
         Cosponsors

        SBA’s policy requires all potential cosponsors to be vetted and a conflict of interest
        determination performed by the General Counsel or designee. Vetting an entity and
        making a conflict of interest determination are two different processes. Vetting is the
        process of gathering information about an entity to see if it has any relationship with
        SBA. The conflict of interest determination is the legal determination of whether a
        potential cosponsor has an actual or apparent conflict of interest with SBA. The results


13
   In December 2004 SBA cosponsorship and gifts laws changed and subsequent regulations and new policy were
issued.

                                                     13

         of the vetting process are used by the General Counsel or designee during the conflict of
         interest determination. Vetting results are included in the cosponsorship file. SBA policy
         does not require the conflict of interest determinations to be documented anywhere other
         than on Form 1615 (Part Two is for signature of legal counsel).

         Vetting results for all cosponsors, with the exception of one activity in Louisiana14, are
         available in the cosponsorship files (which were reviewed by the OIG). Additionally all
         five activities have a Form 1615 signed by the appropriate legal counsel. Legal counsel
         performed conflict of interest reviews for all original cosponsors and all additional
         cosponsors joined to the agreement at a later date, with the exception of Louisiana.
         SBA policy does not require legal counsel to draft a legal memorandum for each conflict
         of interest determination performed.

     B.	 Official Cosponsorship Files were not Complete

         We agree that four of the five Final Cosponsorship Reports, SBA Form 2299, were not
         submitted to the Office of Strategic Alliances (OSA) in a timely manner. We also agree
         that the Responsible Program Officials need to be reminded of their responsibilities to
         close out a cosponsored activity. We disagree that adding the specific roles and
         responsibilities of a fiscal agent to the cosponsorship agreements is more effective than
         a cross reference to the governing document (SOP 90 75 3). We believe the SOP and
         supplemental guidance are the better vehicles to provide this detailed information. This
         is further addressed in Recommendation 1.
     C.	 The SBA Did Not Always Properly Account for Excess Funds from Cosponsored Activities

         We agree that in several cases the funds remaining after all activity expenses were paid
         were not handled in accordance with SBA policy; however, we disagree with the Draft
         Report’s characterization of some of the funds as outlined in Appendices A and B. SBA
         independently reviewed the activities. In some instances, we found different results than
         those reflected in the Draft Report. Each activity Iisted in the Draft Report Appendices A
         and B is addressed below and reflects the findings of our internal review. We also note
         that the Draft Report has several inconsistencies between data reported in this section
         and data reported in the Appendices. We provide our event-by-event analysis below.

         1.	 2007 America East Lenders Conference (Rhode Island): The Draft Report indicates that
             event expenses were $92,557 and event income was $127,011 yielding excess funds of
             $34,454. There was only one cosponsor for this event (the SBDC). The sources of the funds
             to pay for this event were registration fees ($65,511) and the SBDC (the balance, $27,046).
             Since there were no additional cosponsors of the event, there were no excess funds to be
             returned to a cosponsor. The SBDC (through its host institution) is authorized to raise funds
             to support its program. The mistake and source of confusion was with the reporting obtained
             from the SBDC. The SBDC erroneously included its internal funding efforts on the
             cosponsorship final report. In the future, SBA will provide supplemental information to
             cosponsors/fiscal agents as to what and how they need to report to SBA. As a result, the
             Draft Report should be updated to reflect $0 excess funds for this event.

         2.	 2009 America East Lenders Conference (Rhode Island): The Draft Report states there is
             $36,941 in excess funds which the fiscal agent deposited into a muni fund “under an SBA
             account.” SBA’s review of the fiscal agent’s bank statements shows the fiscal agent does

14
   The file for the 2010 Mid-America Lenders Conference in Louisiana shows that the vetting and conflict of interest
for the primary cosponsors was completed and a Form 1615 was signed. The District Office joined additional
cosponsors later but documentation on additional vetting is missing from the file.

                                                          14

           maintain an investment account but the account is in its own name (SCORE). It is not in
           SBA’s name and it is not an account for SBA.

       3.	 2010 American East Lenders Conference (Maine): The Draft Report says the fiscal agent
           reimbursed itself $8,970 based on the final accounting report showing two expenses labeled
           “internal transfer.” SBA asked the fiscal agent for more detail regarding these transfers. The
           fiscal agent provided documentation illustrating $2,970 was to pay for the 3% credit card
           transaction fees directly associated with the registration of this activity. This is an allowable
           expense under SBA’s policy. The $6,000 transfer was confirmed to be event management
           services provided by the cosponsor/fiscal agent which is not allowed under SBA policy.
           Appendices in the Draft Report should be updated to reflect this information.

       4.	 2010 Mid-America Lenders Conference (Louisiana): The Draft Report states there were
           $24,033 in excess funds which remained in the hands of the fiscal agent. Of that $24,033,
           $8,416 was used to pay for other non-conference related expenses, leaving $15,617 still in
           the cosponsor’s account. SBA confirmed that although the intent of the cosponsors was to
           donate the excess funds to SBA, the transfer of funds to SBA’s Business Assistance Trust
           Fund (BATF) never occurred. If the transfer had occurred, the non-conference expenditures
           would have been appropriate as all expenses supported SBA initiatives. We also found a
           slight correction to the numbers in the Draft Report. Upon request for clarification of the
           $8,416 spent after the conference, it was discovered that $371 was spent on conference-
           related expenses (replacing damaged awards). The final numbers should be $24,034 in
           excess funds with $8,045 spent on non-conference expenses and $15,617 remaining in the
           fiscal agent’s account.

       5.	 2011 American East Lenders Conference (Buffalo): The Draft Report states the fiscal agent
           paid itself $11,148 as a management fee. SBA asked the fiscal agent for clarification of the
           $11,148, marked as paid to SCORE (the fiscal agent) on the final accounting report. SBA
           received a break-down of the $11,148 and found that $2,508 was spent on conference
           website maintenance, $140 on Pay Pal expenses (Pay Pal was used to collect conference
           registration fees) and $8,500 on administrative costs for registration. Of the $11,148, only
           $8,500 was confirmed to be services provided directly by the cosponsor/fiscal agent.


Conclusion

SBA’s ability to cosponsor activities with non-Federal entities stems from statutory authority in
the Small Business Act. Cosponsored activities are collaborative activities between SBA and
one or more outside entities. The purpose is to leverage public and private resources in order to
provide a benefit to small businesses. With this understanding of cosponsored activities, we
find the Draft Report’s conclusions to be confusing and potentially misleading but agree that
SBA bears responsibility to ensure these activities are executed as contemplated in the
cosponsorship agreement.

Recommendations

   1.	 [AA/OCPL] Collaborate with General Counsel to update the cosponsorship agreement template
       to clearly include all specific roles and responsibilities for fiscal agents and other accountable
       parties in accordance with SOP 90 75 3.
            a.	 Agree with the intent behind this recommendation but do not agree with the actual
                recommendation. Based on our review of the files we have concluded that supplemental
                guidance is a better approach than including roles and responsibilities in the actual
                cosponsorship agreement template because we can provide examples and explanations
                in a way that is not appropriate in the cosponsorship agreement. Roles are currently
                identified but what is evident from this audit is that people need to better understand the
                terms and need more instruction on what and how to report.


                                                    15

2.	 [OSA] Establish controls, such as a reporting system, to ensure that all activities are timely and
    properly closed out and that all required documents and reports as specified in SOP 90 75 3 are
    obtained.
        a.	 Agree. SBA has a reporting system that relies heavily on human resources. The Agency
            is exploring ways to use technology it already owns to collect cosponsorship information
            and track agreements from conception and approval to close-out.

3.	 [OSA] Conduct periodic review of the official cosponsorship files for completeness and
    compliance with SOP requirements.
       a.	 Agree. OSA would like to be more proactive; however, it needs more staff in order to
           accomplish these tasks. OGC and OSA will explore ways to leverage OGC staff to assist
           OSA with this task.

4.	 [OSA] Provide training for staff that plan cosponsored activities to reinforce their roles and
    responsibilities.
        a.	 Agree. SBA currently provides annual cosponsorship training to employees and plans to
            supplement this training with some specialized training focusing on roles and
            responsibilities of fiscal agents. All supplemental materials will be made available through
            the Agency’s intranet website. OGC and OSA will also explore ways to leverage OGC
            staff to assist OSA with this task.

5.	 [OSA] Collaborate with OGC to ensure that all potential cosponsors are properly vetted prior to
    soliciting or accepting their cash contributions.
         a.	 We agree vetting is important but we disagree with this recommendation as the audit
              does not demonstrate a deficiency with the vetting process. Only one cosponsorship file
              did not contain all the requisite vetting information.

6.	 [AA/OFO] Initiate actions to properly account for, and dispose of $36,941 remaining from the
    2009 America East Conference and $15,617 remaining from the 2010 Mid-America Lender
    Conference in accordance with the provisions of SOP 90 75 3.
        a.	 Agree. SBA will dispose of the $15,617 from the 2010 Mid-America Lender Conference
            by placing it in the Business Assistance Trust Fund. All cosponsors have indicated it was
            their intent that excess funds be donated to SBA and will complete documentation to
            demonstrate their intent.
        b.	 Existence of excess funds of $36,941 from 2009 America East Conference is still unclear,
            as according to our internal review, these funds do not exist or are not available as
            described in the Draft Report.

7.	 [AA/OFO] Under the provisions of FMFIA, perform periodic quality service reviews to include
    cosponsorship files and funds disposition, verifying any expenses paid out of cosponsored
    income are appropriate.
        a.	 Agree. Cosponsored activities are one of the activities already included in the Field
            Accountability Review (formerly called QSRs) and the Agency agrees to revisit the list of
            cosponsorship-related questions to see if there are ways to improve this portion of its
            peer-to-peer review process.

8.	 [GC] Finalize and issue the draft gifts SOP including specific procedures and timeframes
    regarding the disposition of any excess funds that result from SBA-cosponsored activities.
        a.	 Disposition of excess cosponsorship funds is outlined in SOP 90 75 3, Outreach
            Activities. There is no requirement that excess funds be gifted to SBA. Funds can also
            be refunded to the cosponsors. Because of the options available, we think SOP 90 75 3
            is the appropriate place to address the procedures for disposing of these funds since they
            stem from cosponsored activities. If cosponsors decide to make a gift to the Agency of
            any remaining cosponsorship funds, such funds are treated like any other cash gift to the
            Agency. The Agency is in the process of issuing a new Gift SOP which cross references
            SOP 90 75 3 as appropriate.




                                                16

